IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-14268-C

DAVID JAMES LOLA,
Plaintiff - Appellant,
versus
MIAMI HERALD, INC.,
MONROE COUNTY SHERIFF'S OFFICE,
RICK RAMSEY,
Sheriff,
MONROE COUNTY,
MONROE COUNTY BOARD OF COMMISSIONERS, et al.,
Defendants - Appellees.

Appeal from the United States District Court
for the Southern District of Florida

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the Appellant David James Lola failed to pay the filing and
docketing fees (or file a motion in the district court for relief from the obligation to pay in
advance the full fee) to the district court within the time fixed by the rules, effective December
30, 2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Walter Pollard, C, Deputy Clerk
FOR THE COURT - BY DIRECTION

Case 4:20-cv-10091-JLK Document 14 Entered on FLSD Docket 10/16/2020 .Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
KEY WEST DIVISION
CASE NO. 4:20-cv-10091-JLK
DAVID JAMES LOLA,
Plaintiff,
v.
MIAMI HERALD, INC., et al.,
Defendants.
ORDER AFFIRMING MAGISTRATE’S
REPORT AND RECOMMENDATION AND
DISMISSING PLAINTIFF’S AMENDED COMPLAINT
THIS CAUSE comes before the Court upon the October 13, 2020 Report and
Recommendation (“R&R”) of Magistrate Judge Lisette M. Reid (DE 12), recommending that
Plaintiffs Complaint (DE 1) be dismissed without prejudice pursuant to Fed. R. Civ. P. 41(b) for
failure to prosecute and for failure to comply with court orders.
The record reflects that Plaintiff was afforded multiple opportunities to amend his
complaint to comply with the local rules. (See DE 3, 5, 9). However, instead of amending his
complaint as Judge Reid so ordered (see DE 5,9), Plaintiff appealed these orders to the district
court for review. (See DE 6,11). Plaintiff ultimately filed an Amended Complaint “under protest”
(Am. Compl. f 1, DE 13), yet Plaintiff still failed to comply with the local rules and Judge Reid’s
instructions.
Accordingly, it is ORDERED, ADJUDGED, and DECREED that:
1. Magistrate Judge Lisette M. Reid’s October 13, 2020 Report and Recommendation (DE

Case 4:20-cv-10091-JLK Document 14 Entered on FLSD Docket 10/16/2020 Page 2 of 2

12) be, and the same is, hereby AFFIRMED and ADOPTED as an Order of this Court;
2. Plaintiffs Amended Complaint (DE 13) is hereby DISMISSED WITHOUT
PREJUDICE under Federal Rule of Procedure 41(b) for failure to comply with court
orders. Plaintiff may file a new case under a new case assignment, if he so desires;
3. All pending motions are hereby DENIED as moot; and
4. The Clerk of Court shall CLOSE this case.
DONE AND ORDERED in chambers at the James Lawrence King Federal Justice
Building and United States Courthouse, Miami, Florida, this 16th day of October, 2020.
Ci

/Vm

,^/lAMES LAWRENCE KING /
UNITED STATES DISTRIC'MUDGE
cc: All Counsel of Record

Case 4:20-cv-10091-JLK Document 12 Entered on FLSD Docket 10/13/2020 Page 1 of 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 20-10091-CV-KING
MAGISTRATE JUDGE REID
DAVID JAMES LOLA,
Plaintiff,
v.

MIAMI HERALD INC., et al.,
Defendants.
REPORT AND RECOMMENDATION OF MAGISTRATE JUDGE
This matter is before the Court on a sua sponte review of the record. This
cause has been referred to the Undersigned for Report and Recommendation on any
dispositive matter pursuant to 28 U.S.C. § 636(b)(1)(B) and S.D. Fla. Admin. Order
2019-2. [ECF No. 2].
On August 10, 2020, the Undersigned Ordered Plaintiff to file an amended
complaint by September 6, 2020. [ECF No. 5]. Plaintiff was cautioned that failure
to file the amended complaint on time would probably result in dismissal of this
case. [Id. at 4]. Instead of filing an amended complaint, Plaintiff filed an “Appeal
and Objections to Order to Amend Complaint,” essentially alleging that his initial
complaint was properly pled and that he would not file an amended complaint in
compliance with the Court’s order. [ECF No. 6].

Case 4:20-cv-10091-JLK Document 12 Entered on FLSD Docket 10/13/2020 Page 2 of 3

In light of Plaintiffs objections and his failure to timely file his amended
complaint, the Court sua sponte extended the time to file an amended complaint on
September 10, 2020. [ECF No. 9]. In that order, the Court informed Plaintiff that the
amended complaint deadline was now extended until October 9,2020. [Id.]. Plaintiff
was informed that failure to file an amended complaint by October 9, 2020, would
result in dismissal of the case for failure to prosecute and/or failure to comply with
court orders. [Id.]. In response, Plaintiff again filed an “appeal” of the order, arguing
that he “cannot legally or constitutionally be compelled to file an amended
complaint.” [ECF No. 11 at 6].
This Court has the inherent authority to govern its proceedings. See Chambers
v. NASCO, Inc., 501 U.S. 32,43 (1991). Such authority includes the power to dismiss
a case for failure to prosecute or for failure to comply with a court order under Fed.
R. Civ. P. 41(b). See id. See also Equity Lifestyle Props, Inc. v. Fla. Mowing &
Landscape Servs., Inc., 556 F.3d 1232, 1240 (11th Cir. 2009) (quoting
Chambers,501 U.S. at 43).
“While dismissal is an extraordinary remedy, dismissal upon disregard of an
order, especially where the litigant has been forewarned, generally is not an abuse
of discretion.” Moon v. Newsome, 863 F.2d 835, 837 (11th Cir. 1989). Under these
circumstances, this case should be dismissed pursuant to the Court’s inherent

2

Case 4:20-cv-10091-JLK Document 12 Entered on FLSD Docket 10/13/2020 Page 3 of 3

authority and Fed. R. Civ. P. 41(b) for Plaintiffs failure to comply with the
Undersigned’s two Orders and for want of prosecution.
Thus, it is RECOMMENDED that Plaintiffs Complaint [ECF No. 1] be
DISMISSED without prejudice pursuant to Fed. R. Civ. P. 41(b) for failure to
prosecute and for failure to comply with Court Orders and all that pending motions
be DENIED AS MOOT.
Objections to this Report may be filed with the District Judge within fourteen
days of receipt of a copy of the report. Failure to do so will bar a de novo
determination by the District Judge of anything in the Report and Recommendation
and will bar an attack, on appeal, of the factual findings of the Magistrate Judge. See
28 U.S.C. § 636(b)(1)(C); see also Thomas v. Am, 474 U.S. 140, 149 (1985).
SIGNED this 13th day of October, 2020.
U4UJ, Tfj

UNITED STATES MAGISTRATE JUDGE

cc:

David James Lola
18001264
Monroe County Jail
Inmate Mail/Parcels
5501 College Road
Key West, FL 33040
PROSE

3

Additional material
from this filing is
available in the
Clerk's Office.

